                                                   NATIONAL SCIENCE FOUND ATJON
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

 Case Number: 1-09100061                                                                      Page 1 of 1



          This investigation was opened in response to an allegation that two NSF employees' had used
          NSF resources to work on partisan political activities. A review records found sufficient
          evidence to refer the matter to the Office of Special Counsel (OSC) for potential violations of the
          Hatch Act. OSC sent a letter to one employee2 warning to not conduct partisan political
          activities in the workplace, and pursued disciplinary action against the other. Our office
          examined the second employee's misconduct in relation to NSF and OGE regulations. We
          concluded the matter should be closed without further investigatory effort.

          This case is closed with no further action taken.




NSF OIG Form 2 (11 /02)
